4/19/2016

Application Disclosures
Home

Online Banking

Internet Banking

Contact Us

Personal

Business

Locations

Loans

About Us

Careers

Customer Education

In the News

Investor Relations

Application Disclosures ‐ Investar Platinum Consumer Credit Cards

Username:

Rev 3­2016

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases
Privacy Policy
Click Here
Make Your Loan Payment*
Click Here
*New Look for Make a Payment
now live!
Apply for a Home
Equity Line of Credit
Click Here
To view a list of our
NMLS originators
Click Here

7.24%, 10.24%

or

13.24%

when you open your account, based on

your creditworthiness.
After that, your APR will vary with the market based on the Prime Rate.

APR for Balance Transfers
and Cash Advances

7.24%, 10.24% or 13.24% when you open your account, based on your
creditworthiness.
After that, your APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$10.00

Transaction Fees
· Cash Advance

$5.00

· Foreign Transaction

1.0% of each transaction in U.S. dollars, if transaction is made outside U.S. and
converted from foreign currency; or
0.8% of each transaction in U.S. dollars, if transaction is made outside U.S. in U.S.
dollars

Penalty Fees
· Late Payment

Up to $15

· Returned Payment

Up to $15

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Important Information About Procedures for Opening a New Account. To help the government fight the funding of terrorism and
money laundering activities, Federal law requires all financial institutions to obtain, verify, and record information that identifies
each person who opens an account. What this means for you: When you open an account, we will ask for your name,
address, date of birth, and other information that will allow us to identify you. We may also ask to see your driver’s license or
other identifying documents.
Terms and Conditions: The words “you” and “your” mean each person (as an individual) and all persons (as a group) applying
as a Primary Applicant or Co­Applicant. You are applying for a credit card account provided by Investar Bank, Baton Rouge, LA
(“we,” “us,” and “our”). By applying, you certify and agree that:
·

You are at least 18 years old (or at least 19, if a Nebraska or Alabama resident);

·

You received, read, and agree to all terms and conditions provided with this application;

·

All information and documents provided with your application are true, correct, and complete and we may rely on it;

·

You are asking us to issue credit cards for account access to you and each Authorized User that any of you designate;

·

You agree to be responsible, individually and together, for account use by any of you and any Authorized User;

·

You will read the Investar Bank Cardholder Agreement and its Account Opening Disclosures carefully before you use or
allow anyone else to use any credit card account;

·

We are allowed to verify your employment, income, address, and all other information about you with financial
institutions, credit reporting agencies, employers, government agencies, and other third parties;

·

We are authorized to use and disclose information about you, this application and any account we provide for our
everyday business purposes, to the extent permitted by applicable law and as described in our Privacy Policy, including
information we share with our service providers and other financial institutions to maintain and provide your credit card
account; and

·

The obligations incurred with this credit card account are being incurred in the interest of your marriage or family, if you
are married and living in a community property state.

You agree that we may obtain consumer credit reports about you to review this application, and, if we open a credit card
account for you, that we may obtain consumer credit reports about you in the future to review, update, renew, collect, and
service your credit card account and for other purposes permitted by law. We will, if you request, tell you whether we obtained
a consumer credit report about you and tell you the name and address of any consumer reporting agency that provided the
report.
If we open a credit card account for you, you understand and agree that you will be subject to all terms and conditions
described in our Investar Bank Cardholder Agreement, as amended from time to time, including but not limited to its terms

https://www.investarbank.com/Personal/CreditCards/ApplicationDisclosures.aspx

1/2

4/19/2016

Application Disclosures
related to account payments, rates, fees, and other terms. This Investar Bank Cardholder Agreement becomes effective the
first time you or any Authorized User activates a Card or uses the Account in any way. You understand and agree that we may
change the Investar Bank Cardholder Agreement and the rates, fees, and terms of your credit card account as allowed by law,
after we give any notice and wait any time period that the law requires.
Consent for Communications: By providing at any time the number of your land line, cell phone or other wireless device and
your email address, you expressly consent and agree that we and any of our affiliates, agents, service providers or assignees
may call you, using an automatic telephone dialing system or otherwise; may leave you a voice, prerecorded, or artificial voice
message; and may send you a text, e­mail or other electronic message for any purpose related to the servicing or collection of
any Account, Card or loan you may receive from us or for other informational purposes related to your Account (each a
“Communication”). You agree that we and any of our affiliates, agents, service providers or assignees may call or text you at
any telephone number associated with your accounts that you provide to us now or in the future, including cellular telephone
numbers, and that we may send an e­mail to any email address associated with your accounts that you provide to us now or in
the future. To cancel your consent for use of automatic telephone dialing systems and prerecorded or artificial voice messages,
please write to us at Investar Bank, 10500 Coursey Blvd., 3rd Floor Loan Operations, Baton Rouge, LA 70816. You also agree
that we and any of our affiliates, agents, service providers or assignees may include your personal information in a
Communication. We will not charge you for a Communication, but your service provider may. You agree that we and our agents
and service providers may monitor and record telephone calls about your credit card account to assure service quality or for
other legitimate business reasons. In addition, you understand and agree we and any of our affiliates, agents, service providers
or assignees may always communicate with you in any manner permissible by law that does not require your prior consent.
Notice of Negative Information Furnishing: We may report information about your account to credit bureaus. Late payments,
missed payments, or other defaults on your account may be reflected in your credit report.
Notice to California Residents: An applicant, if married, may apply for a separate account. After credit approval, the Primary
Applicant and any Co­Applicant shall each have the right to use the account to the extent of any established credit limit and each
may be liable for all credit extended under the account.
Notice to Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies maintain separate credit histories on each individual upon request.
The Ohio Civil Rights Commission administers compliance with this law.
Notice to New York Residents: You may contact the New York Department of Financial Services at (877) 226­5697 to obtain a
comparative listing of credit card rates, fees, and grace periods.
Notice to Married Wisconsin Residents: Wisconsin law provides that no agreement, unilateral statement or court decree relative
to marital property shall adversely affect a creditor’s interest, unless prior to the time credit is granted the creditor is furnished a
copy of the agreement, statement or decree, or has actual knowledge of the adverse provision. If any or both of you are
married Wisconsin residents, each of you agree to provide us with your spouse’s name and address at the following address
within five (5) days of your application, so we can provide your spouse(s) with any notice required by Wisconsin law: Investar
Bank, 10500 Coursey Blvd., 3rd Floor Loan Operations, Baton Rouge, LA 70816.
Helpful Links

Calculators

https://www.investarbank.com/Personal/CreditCards/ApplicationDisclosures.aspx

Disclaimers

2/2

